                                               U.S. DEPARTMENT OF
                            HOUSING AND URBAN DEVELOPMENT
                                        OFFICE OF INSPECTOR GENERAL




September 13, 2012



Ms. Gloria Bishop
President
Bankers Mortgage Group, Inc.
21900 Burbank Boulevard
Suite 110
Woodland Hills, CA 91637


Dear Mrs. Bishop:

Enclosed is our audit report resulting from our recently completed review of Bankers Mortgage
Group. If you have any questions, please contact me at (213) 534-2471 or James Brady,
Assistant Regional Inspector General for Audit, at (415) 489-6697.


Sincerely,


Tanya E. Schulze
Regional Inspector General for Audit


Enclosure


cc:    Charles Coulter, Deputy Assistant Secretary, Single Family Housing, HU
       Belinda Martin, Single Family Housing Specialist, Office of the Deputy Assistant
       Secretary for Single Family Housing, HU
       Shannon O’Toole, Director, Santa Ana Homeownership Center, 9JHH
       Dane Narode, Associate General Counsel for Program Enforcement, CACC




                                               Office of Audit (Region 9)
                              611 W. Sixth Street, Suite 1160, Los Angeles, CA 90017
                                     Phone (213) 894-8016, Fax (213) 894-8115
                          Visit the Office of Inspector General Website at www.hudoig.gov
 OFFICE OF AUDIT
 REGION 9
 LOS ANGELES, CA




    Bankers Mortgage Group, Woodland Hills, CA

                   FHA Loan Originations




2012-LA-1011                               SEPTEMBER 13, 2012
                                                        Issue Date: September 13, 2012

                                                        Audit Report Number: 2012-LA-1011




TO:            Charles S. Coulter, Deputy Assistant Secretary for Single Family Housing, HU

               Dane Narode, Associate General Counsel for Program Enforcement, CACC



FROM:          Tanya E. Schulze, Regional Inspector General for Audit, Los Angeles Region,
               9DGA

SUBJECT:       Bankers Mortgage Group, Woodland Hills, CA, Loan Originations Did Not
               Comply With FHA-Insured Loan Documentation Requirements


    Enclosed is the U.S. Department of Housing and Urban Development (HUD), Office of
Inspector General (OIG), final results of our review of Bankers Mortgage Group.

    HUD Handbook 2000.06, REV-4, sets specific timeframes for management decisions on
recommended corrective actions. For each recommendation without a management decision,
please respond and provide status reports in accordance with the HUD Handbook. Please furnish
us copies of any correspondence or directives issued because of the audit.

    The Inspector General Act, Title 5 United States Code, section 8L, requires that OIG post its
publicly available reports on the OIG Web site. Accordingly, this report will be posted at
http://www.hudoig.gov.

   If you have any questions or comments about this report, please do not hesitate to call me at
(213) 534-2471.
                                            September 13, 2012
                                            Bankers Mortgage Group, Woodland Hills, CA, Loan
                                            Originations Did Not Comply With FHA-Insured Loan
                                            Documentation Requirements



Highlights
Audit Report 2012-LA-1011


 What We Audited and Why                     What We Found

We audited loans originated by Bankers      Bankers Mortgage Group did not originate loans using
Mortgage Group, Woodland Hills, CA,         sufficient, reliable, and valid documentation in
in response to a referral from the Office   compliance with HUD requirements. Specifically, 9 of
of Inspector General’s (OIG) Office of      10 loans reviewed contained significant deficiencies
Investigation alleging that Bankers         that affected the integrity of data entered into the
Mortgage Group originated loans with        automated underwriting system. These nine loans with
false documentation. Our objective was      significant deficiencies were originated with false or
to determine whether the lender             questionable income and asset documentation. This
originated FHA-insured loans using          included income that could not be verified, gifts to
sufficient, reliable, and valid             borrowers that lacked evidence of source of funds, and
documentation.                              improperly sourced earnest money deposits.

                                            This occurred because Bankers Mortgage Group
 What We Recommend
                                            disregarded FHA requirements pertaining to required
                                            documentation for loan originations. As a result, the
We recommend that Bankers Mortgage          FHA fund was put at risk for losses totaling more than
Group or other responsible lender (1)       $1.5 million.
indemnify HUD against potential losses
of more than $1.5 million for eight
loans and (2) reimburse the FHA
insurance fund $58,704 for the actual
loss on one loan. We also recommend
pursuit of remedies under the Program
Fraud Civil Remedies Act (31 U.S.C
(United States Code) 3801-3812), civil
money penalties (24 CFR (Code of
Federal Regulations) 30.35), or both
against Bankers Mortgage Group, its
principals, or both for certifying to the
truthfulness and correctness of false or
questionable loan information. We also
recommend that the HUD Quality
Assurance Division (QAD) review the
remaining loans that were originated by
Bankers Mortgage Group, and take
action as appropriate.
                            TABLE OF CONTENTS


Background and Objectives                                                     3

Results of Audit
      Finding: Bankers Mortgage Group Did Not Originate Loans That Complied
               With HUD-FHA Loan Documentation Requirements                   5

Scope and Methodology                                                         11

Internal Controls                                                             13

Appendixes
A.    Schedule of Questioned Costs and Funds To Be Put to Better Use          15
B.    Auditee Comments and OIG’s Evaluation                                   16
C.    Criteria                                                                22
D.    Schedule of Estimated Losses for Loans With Significant Deficiencies    25
E.    Narrative Loan Summaries for Significant Underwriting Deficiencies      26




                                             2
                        BACKGROUND AND OBJECTIVES

The Federal Housing Administration (FHA) was created by Congress in 1934 and provides
mortgage insurance on loans made by FHA-approved lenders throughout the United States and
its territories. FHA insures mortgages on single-family and multifamily homes including
manufactured homes and hospitals. It is the largest insurer of mortgages in the world, having
insured more than 34 million properties since its inception.

FHA mortgage insurance provides lenders with protection against losses as a result of
homeowners defaulting on their mortgage loans. Lenders bear less risk because FHA will pay a
claim to the lender in the event of a homeowner’s default. Loans must meet certain requirements
established by FHA to qualify for insurance.

FHA operates entirely from self-generated income and is not funded by taxpayers. The proceeds
from the mortgage insurance paid by homeowners are maintained in an account that is used to
operate the program.

FHA is authorized to pursue civil money penalties against any owners, officers, or directors of an
FHA-approved lender for violations of program requirements. FHA may also pursue civil money
penalties against any non-FHA-approved or unauthorized individual or entity that originates an FHA-
insured loan or any participant in FHA programs that causes or participates in any violation set forth
in section 536(b)(1) of the National Housing Act. Other program participants include but are not
limited to real estate agents and brokers, appraisers and inspectors, borrowers, mortgage brokers and
third-party originators, closing agents, and title companies.

Bankers Mortgage Group is located in Woodland Hills, CA, and originates FHA-insured loans
for underwriting by sponsoring lenders. According to the U.S. Department of Housing and
Urban Development’s (HUD) Neighborhood Watch system 1, Bankers Mortgage Group received
FHA approval as a loan correspondent in April 1994. HUD revised its procedures in 2011 and
stopped accepting applications for approval of loan correspondents. HUD now refers to loan
correspondents as sponsored third-party originators. As a third-party originator, Bankers
Mortgage Group still maintains its loan origination functions but no longer obtains HUD
approval as a loan correspondent. However, Bankers Mortgage Group must still be sponsored by
a HUD-approved lender for loan underwriting purposes. Bankers Mortgage Group closed 21
FHA-insured loans between July 2009 and September 2011.

Bankers Mortgage Group currently maintains the services of a local quality control contractor.
However, HUD views the loan sponsor as the responsible party for quality control of its third-
party originators. Therefore, our report does not include an assessment of the quality control
contractor’s review of FHA loans originated by Bankers Mortgage Group, nor does it include a
review of the sponsoring lender’s controls.



1
 Neighborhood Watch is a system that aids HUD/FHA staff in monitoring lender progress and performance. The
system also aids lenders and the public in self-policing the industry.


                                                     3
Our objective was to determine whether Bankers Mortgage Group used sufficient, reliable, and
valid documentation to originate its FHA loans.




                                              4
                                RESULTS OF AUDIT


Finding: Bankers Mortgage Group Did Not Originate Loans That
         Complied With HUD-FHA Loan Documentation
         Requirements
Bankers Mortgage Group did not use sufficient, reliable, and valid documentation to originate its
FHA-insured loans. Nine of ten loans reviewed contained deficiencies that were significant
enough to impact the insurability of the loan. This noncompliance occurred because the lender
disregarded FHA requirements pertaining to the origination of FHA loans and associated
penalties for originating loans with false documentation. As a result, borrowers were qualified
based on false and questionable documentation, putting the FHA fund at risk for losses totaling
more than $1.5 million.


 Nine Loan Files Contained
 Significant Deficiencies


              Our review identified nine loans with significant deficiencies including six loans
              with false and questionable income documentation. Nine loans reviewed had
              insufficient sourcing of borrower deposits and failed to document the transfer of
              gift funds between donors and borrowers. HUD Handbook 4155.1 details the
              requirements for documenting borrowers’ income, verifying borrowers’ earnest
              money deposits, and documenting the transfer of gift funds (see appendix C).
              Bankers Mortgage Group originated loans that did not comply with the
              requirements set forth in the handbook.

              The table below lists the 10 FHA loan numbers reviewed and deficiencies
              associated with each loan. The table also includes the nine loans that had
              significant deficiencies and, therefore, warranted indemnification. Detailed
              narratives for each loan with significant deficiencies are contained in appendix E
              of the report.




                                                5
                            Schedule of loan deficiencies
                                Deficiencies
                                             False        Significant                            No
       FHA loan number Income Assets documents           deficiencies                        deficiencies
    1 197-4525510 2       X       X           X               X
    2 197-4249639 3       X       X           X               X
    3 197-4382913                                                                                  X
    4 197-4639800                 X                           X
    5 197-4454618         X       X                           X
    6 197-4173899         X       X                           X
    7 197-4725331                 X                           X
    8 197-5237865                 X                           X
    9 197-4598615         X       X                           X
    10 045-7422057        X       X                           X
                          6       9            2               9                                   1

                 Income

                 Six of the nine loans with significant income deficiencies included one of two
                 loans in our sample that were originated with false documentation. The other five
                 loans had income documents that were questionable.

                 HUD 4155.1 requires the lender to obtain a verification of employment and the
                 borrower’s most recent pay stub showing year-to-date earnings of at least one
                 month. For FHA loan no. 197-4249639, the employer told us that the pay stubs
                 we found in the file for the borrower were not issued by his company. The
                 employer provided the actual pay stubs, which showed that the borrower was an
                 hourly, not a salaried, employee as shown on the pay stubs in the file. In addition,
                 the employer told us that the signature on the borrower’s verification of
                 employment did not belong to him. The income from the pay stubs in the file was
                 $2,641 per month and was used to qualify the borrower. However, State of
                 California wage information, which agreed with the amounts on the actual pay
                 stubs furnished to us by the employer, showed that the borrower earned $20,385
                 per year, or an average of $1,699 per month. Therefore, the borrower’s income
                 was overstated and based on false income information. We attempted to verify
                 employment for the five loans with questionable income documentation.
                 However, the employers were nonresponsive and would not verify employment.
                 We also found discrepancies in the income documentation. FHA Loan No. 197-

2
 The purchase loan was terminated due to a refinance (FHA loan no. 197-5157630). However, the refinance would
not have occurred without the improper origination of the purchase loan. Therefore, we recommend indemnification
of the refinanced loan.
3
 The purchase loan was terminated due to a refinance (FHA loan no. 197-5157291). However, the refinance would
not have occurred without the improper origination of the purchase loan. Therefore, we recommend indemnification
of the refinanced loan.



                                                       6
4525510, contained income that could not be verified with the State of California.
Loan file documentation showed that repeated attempts were made to obtain the
borrower’s pay stubs. However, the pay stubs were not provided until two
months after the borrower’s employer signed the VOE. We made several
attempts to verify the borrower’s employment. However, employees working at
the location stated they were unfamiliar with the manager/owner and gave
conflicting information about when the manager/owner reported for work. FHA
loan no. 197-4454618 contained verifications of employment from two different
employers with the same pay information (date of employment, job title, and
year-to-date pay). Two loans in our sample shared the same employer (FHA loan
nos. 197-4173899 and 045-7422057), yet the verifications of employment and pay
stubs in the borrowers’ loan files were completely different and had different
employer signatures. In addition, no wages were reported to the State of
California for one of the borrowers. One borrower (FHA loan no. 197-4598615)
told us that he worked at his place of employment, and was routinely
compensated in cash. However, his manager issued pay stubs to assist him in
obtaining his loan. No wages were reported to the State of California for the
borrower.

Assets

All nine loans with significant deficiencies did not have sufficient source
documentation to support gift funds and earnest money deposits. Three loans
lacked both the necessary source documentation for gifts provided by donors and
borrowers’ earnest money deposits. The remaining six loans lacked either source
documentation for gift funds or borrowers’ earnest money deposits.

HUD Handbook 4155.1 states that the lender must document the transfer of gifts
between the borrower and the donor and must obtain the appropriate source
documents to show that the funds came from the donor’s account and, when
applicable, were deposited into the borrower’s account (see appendix C).

For example, two loan files (FHA loan nos. 197-4525510 and 197-4249639)
contained gift letters, donor bank statements, copies of cashier’s checks, and
receipts. However, the bank statement did not evidence the donor’s withdrawal of
funds. We learned that the bank statements, which had been altered to reflect the
names of fictitious donors, actually belonged to the loan officer for this loan, who
was also the president and owner of Bankers Mortgage Group. In addition, FHA
loan no. 197-4249639 included a pay stub as support for a second gift. The last
four digits of the donor’s Social Security number were identical to those of the
borrower.

HUD Handbook 4155.1 also requires the lender to verify with documentation the
deposit amount and source of funds for earnest money deposits. Satisfactory
documentation includes a copy of the borrower’s cancelled check, a certification
from the deposit holder acknowledging receipt of funds, and separate evidence of



                                 7
           the source of funds. Evidence of source of funds includes a verification of deposit
           or bank statement showing that the average balance in the borrower’s account was
           sufficient to cover the amount of his or her earnest money deposit at the time of
           deposit (see appendix C).

           FHA loan no. 197-4249639 included a borrower who provided a copy of a bank
           statement evidencing an account that he shared with his mother, who was also a
           gift donor. Of the $7,694 earnest money deposit, $2,500 was supported with
           adequate documentation. However, the remaining $5,194, which was wire
           transferred to the escrow company, was not supported by documentation showing
           that the borrower had sufficient funds to cover the deposit at the time it was made.
           Another loan (FHA loan no. 197-4454618) had a bank statement in the file from
           August 2009. However, the borrower’s earnest money deposit took place in
           October 2009, and a copy of the borrower’s canceled checks or other satisfactory
           documentation was not included in the loan file.

False and Questionable Loan
Documentation Increased Risk
of Loss to the FHA Insurance
Fund

           Because the lender did not exercise due care and disregarded HUD requirements,
           it originated nine loans that had significant deficiencies, including false and
           questionable income and asset documentation. According to Neighborhood
           Watch, a preforeclosure sale was recently completed for one of the loans, and
           HUD paid a claim and experienced a loss of $58,704. A second loan also went
           into foreclosure, and a third was reinstated by the borrowers without loss
           mitigation after several months of delinquencies and repayments. The loan
           officer certified that loan information submitted for each borrower was true and
           correct. However, we found false documentation for two loans and questionable
           documentation for the remaining seven. Given that the supporting gift
           documentation for two loans in our sample was false, we had no assurance that
           the gifts for the remaining loans come from an appropriate source or interested
           party. In addition, loans originated with income documents that cannot be
           verified with the employer and contain inaccurate and inconsistent pay
           information are suspect and impact the integrity of the loan Besides HUD-FHA
           requirements, Bankers Mortgage Group must also comply with the terms of its
           agreements with loan sponsors. One of the agreements requires Bankers
           Mortgage Group to originate loans that are consistent with prudent underwriting
           standards. In addition, the loans must contain genuine documents, and all
           representations with respect to the application must be true.




                                            8
Conclusion

             The sponsoring lender relied on the loan information supplied by Bankers
             Mortgage Group and certified to the integrity of the data used to determine the
             quality of the loan. Therefore, Bankers Mortgage Group’s noncompliance with
             HUD-FHA requirements affected the integrity of the loan process and information
             entered in the automated underwriting system. The noncompliance occurred
             because Bankers Mortgage Group disregarded requirements pertaining to the
             required documentation for FHA loans. As a result, 9 of 10 loans reviewed were
             not supported with adequate income and asset documentation. These loans had a
             total unpaid mortgage balance of more than $2.3 million, with estimated potential
             losses to HUD of more than $1.5 million for eight loans and an actual loss of
             $58,704 for one loan (see appendixes A and D).

Recommendations

             We recommend that the Deputy Assistant Secretary for Single Family Housing
             require Bankers Mortgage Group or other responsible lender to:

             1A.    Indemnify HUD against potential losses associated with eight FHA-
                    insured loans with significant deficiencies in the amount of $1,521,014
                    (see appendix D).

             1B.    Reimburse the FHA insurance fund $58,704 for the loss associated with
                    one loan with significant deficiencies.

             We recommend that the Deputy Assistant Secretary for Single Family Housing:

             1C.    Require HUD QAD to perform a review of any remaining FHA insured
                    loans originated by Bankers Mortgage Group, and take appropriate action
                    based on the results of the review.

             1D.    Refer Bankers Mortgage Group to the Mortgagee Review Board to take
                    appropriate administrative action against the principal(s) of Bankers
                    Mortgage Group for originating FHA-insured loans with false or
                    questionable documentation, up to and including debarment.

             In addition, we recommend that HUD’s Associate General Counsel for Program
             Enforcement:

             1E.    Determine legal sufficiency and if legally sufficient, pursue remedies
                    under the Program Fraud Civil Remedies Act (31 U.S.C (United States
                    Code) 3801-3812), civil money penalties (24 CFR (Code of Federal
                    Regulations) 30.35), or both against Bankers Mortgage Group, its
                    principals, or both for certifying to the truthfulness and correctness of false


                                               9
or questionable loan information and that due diligence was exercised
during the origination of nine loans that resulted in a loss to HUD of
$58,704 and potential losses of $1,521,014 for a total loss of $1,579,718,
which could result in affirmative civil enforcement action.




                         10
                             SCOPE AND METHODOLOGY

Our audit period covered loans that were closed between July 2009 and September 2011. We
selected Bankers Mortgage Group because of a referral from Office of Inspector General (OIG),
Office of Investigation, stating that the lender had recently originated loans using false
documentation. We conducted our fieldwork at the Bankers Mortgage Group office located in
Woodland Hills, CA, between October 2011 and March 2012.

We used HUD’s Neighborhood Watch and Single Family Data Warehouse 4 systems to identify
all FHA-insured loans that were originated by Bankers Mortgage Group. During the audit
period, Bankers Mortgage Group originated 21 FHA-insured loans. We nonstatistically selected
a sample of 10 FHA-insured loans based on the following considerations:

        •    Loans that were alleged to have been originated using false documents (two loans),

        •    Loans that were delinquent or in foreclosure status (three loans),

        •    Loans that had no wages reported to the State of California (two loans),

        •    Loans with questionable verifications of employment and pay stubs (one loan),

        •    Loans with excessive ratios (one loan), and

        •    Loans with inadequate gift documentation (one loan).

We did not perform an in depth review of Bankers Mortgage Group’s quality control function, as
HUD requires the sponsoring lender to maintain a quality control plan but does not require this
from its third-party originators. Therefore, our report does not include an assessment of Bankers
Mortgage Group’s quality controls, nor did we review the sponsoring lender’s quality control
plans.

To accomplish our objective, we

        •    Reviewed HUD handbooks and reference materials related to single-family
             requirements,

        •    Reviewed 10 of Bankers Mortgage Group’s FHA-insured loan files,

        •    Interviewed pertinent management and staff,

        •    Performed employer verifications,


4
 Single Family Data Warehouse is a large collection of database tables organized and dedicated to support analysis,
verification, and publication of FHA Single Family Housing data.


                                                        11
       •   Interviewed borrowers when available, and

       •   Reviewed escrow company records.

All loans in our sample were underwritten by an automated underwriting system. We primarily
used the lender’s loan origination files to determine borrowers’ income, employment history,
assets, and liabilities. In addition, we reviewed the FHA and loan origination files to determine
whether they contained documentation to support the integrity and accuracy of the data used by
the automated underwriting system to recommend approval of the loan.

We used data maintained by HUD in Neighborhood Watch primarily to obtain status information
on originated loans. We also obtained a count of loans originated by Bankers Mortgage Group
from the Single Family Data Warehouse. Since we did not rely on data produced by these
systems to reach our conclusions, we did not assess the reliability of the data.

We also used wage and salary information produced by the State of California to determine
whether the income included in the borrowers’ loan documents was consistent with the State’s
information. We relied on this information to reach conclusions for loans in our sample.
Therefore, we performed a test of the data validity by comparing wages reported for a 1-year
period by the State to income on pay stubs that were provided to us by an employer of one of the
borrowers in our sample. The income on the pay stubs agreed with the income reported by the
State of California. Therefore, the information was reliable for our use during our review.

We conducted the audit in accordance with generally accepted government auditing standards.
Those standards require that we plan and perform the audit to obtain sufficient, appropriate
evidence to provide a reasonable basis for our findings and conclusions based on our audit
objective. We believe that the evidence obtained provides a reasonable basis for our findings
and conclusions based on our audit objective.




                                                12
                              INTERNAL CONTROLS

Internal control is a process adopted by those charged with governance and management,
designed to provide reasonable assurance about the achievement of the organization’s mission,
goals, and objectives with regard to

           •   Effectiveness and efficiency of operations,

           •   Reliability of financial reporting, and

           •   Compliance with applicable laws and regulations.

Internal controls comprise the plans, policies, methods and procedures used to meet the
organization’s mission, goals, and objectives. Internal controls include the processes and
procedures for planning, organizing, directing, and controlling program operations as well as the
systems for measuring, reporting, and monitoring program performance.


 Relevant Internal Controls

               We determined that the following internal controls were relevant to our audit
               objective:

                  •   Policies and procedures intended to ensure that loan originations comply
                      with HUD-FHA documentation requirements.

               We assessed the relevant controls identified above.

               A deficiency in internal control exists when the design or operations of a control
               does not allow management or employees, in the normal course of performing
               their assignment functions, the reasonable opportunity to prevent, detect, or
               correct (1) impairments to effectiveness or efficiency of operations, (2)
               misstatements in financial or performance information, or (3) violations of laws
               and regulations on a timely basis.




                                                 13
Significant Deficiencies

             Based on our review, we believe that the following item is a significant
             deficiency:

                •   The lender did not have adequate controls to reasonably ensure that loans
                    were originated with valid and reliable income and asset documentation,
                    in accordance with HUD-FHA requirements (finding 1).




                                             14
                                    APPENDIXES

Appendix A

              SCHEDULE OF QUESTIONED COSTS
             AND FUNDS TO BE PUT TO BETTER USE

                 Recommendation                             Funds to be put
                                         Ineligible 1/
                     number                                 to better use 2/
                             1A                                  $1,521,014
                             1B                   $58,704


1/   Ineligible costs are costs charged to a HUD-financed or HUD-insured program or activity
     that the auditor believes are not allowed by law; contract; or Federal, State, or local
     policies or regulations. The ineligible amount is the claim paid by HUD after completion
     of a preforeclosure sale for FHA loan no. 197-4454618.

2/   Recommendations that funds be put to better use are estimates of amounts that could be
     used more efficiently if an OIG recommendation is implemented. These amounts include
     reductions in outlays, deobligation of funds, withdrawal of interest, costs not incurred by
     implementing recommended improvements, avoidance of unnecessary expenditures
     noted in preaward reviews, and any other savings that are specifically identified. If HUD
     implements our recommendations to indemnify loans not approved in accordance with
     HUD-FHA requirements, it will reduce FHA’s risk of loss to the insurance fund. The
     amount noted reflects HUD’s calculation that FHA loses an average of 66 percent of the
     unpaid principal balance when it sells a foreclosed-upon property (see the estimated loss
     to HUD in appendix D). The 66 percent loss rate is based on HUD’s Single Family
     Acquired Asset Management System’s “case management profit and loss by acquisition”
     computation for the first quarter of fiscal year 2012 based on actual sales. Two of the
     eight unpaid principal balances in our sample are refinanced loans, as the original loans
     have been terminated. Since the original loans were deficient but recovery can no longer
     be made due to their status, we are seeking indemnification of the adjusted unpaid
     refinanced loan balances.




                                             15
Appendix B

        AUDITEE COMMENTS AND OIG’S EVALUATION


Ref to OIG Evaluation   Auditee Comments




Comment 1




Comment 2




                         16
Comment 3




Comment 4




Comment 5




            * Names redacted for privacy reasons.




                                    17
Comment 6




Comment 7




            18
                         OIG Evaluation of Auditee Comments

Comment 1   OIG is unable to grant a 30 day-extension for further responses. However,
            Bankers Mortgage Group will have an opportunity to provide verbal and written
            responses to HUD during the audit resolution phase.

Comment 2   We acknowledge that Bankers Mortgage has been in the mortgage business for
            more than 20 years and that crises occurred in Ms. Bishop’s personal life around
            the time period of the loan originations. However, nine of the ten loans originated
            by Bankers Mortgage in our sample contained significant deficiencies. These
            deficiencies included false or questionable income and asset documentation.

Comment 3   OIG reviewed Bankers Mortgage Group loan files and corresponding FHA case
            files. The FHA case file represents loan documentation submitted to HUD and it
            includes loan information provided by both the loan originator and loan sponsor.
            We found various copies of sponsoring lenders’ re-verifications during our
            review, including telephonic re-verifications of employment, e-mails, and faxes.
            We also found copies of W-2s and IRS Forms 1040 in both sets of files. OIG
            performed on-site employment verifications and found there were irregularities in
            the borrowers’ paystubs and original verifications of employment. The employer
            for one loan in our sample (FHA Loan No. 197-4249639) told us that the
            borrower’s paystubs did not come from his company, and then supplied the actual
            paystubs that were issued by his company. In addition, the employer stated that
            the information on the borrower’s verification of employment was not supplied by
            him. Verifications of Employment for another loan (FHA Loan No. 197-4454618)
            were from two different employers, yet reflected identical job titles, dates of
            employment, and year-to-date pay for the borrower. The telephonic verification
            that we found in the FHA case file was incomplete, as it showed the loan sponsor
            verified the borrower’s position and length of employment, but did not verify the
            borrower’s rate of pay and current base pay. In another instance, two borrowers
            were employed at different locations, but shared the same employer (FHA Loan
            Nos. 197-4173899 and 045-7422057). Although the borrowers had the same
            employer, their paystubs had different formatting and the employer’s signatures
            on the verifications of employment were different. We attempted to verify the
            borrowers’ employment at each location, but the occupant at the first location
            refused to speak with us. We could not locate the employer at the second
            location, but he confirmed both borrowers’ employment by telephone. However,
            he refused to provide a signed Statement of Employment Verification. One
            borrower told us that his paystubs were fabricated (FHA Loan No. 197-4598615)
            to assist him in obtaining his loan and another borrower’s employer never
            contacted us despite several visits and telephone calls (FHA Loan No. 197-
            4525510). Borrowers for several of the foregoing loans had no wages reported to
            the State of California.

            Files also lacked the necessary source documentation that was needed to
            completely document borrowers’ receipt of gifts from donors. HUD Handbook



                                            19
            4155.1 (see Appendix C) states that the lender must document the transfer of gifts
            between the borrower and donor and must obtain the appropriate source
            documents to show that the funds came from the donor’s account, and, when
            applicable, were deposited into the borrower’s account. Six loans lacked
            withdrawal documents or cancelled checks showing that gift funds actually came
            from the donors’ accounts.

Comment 4   As stated in the report, Bankers Mortgage Group was selected for review in
            response to a referral from OIG’s Office of Investigation. Therefore, it was not in
            the scope of the audit to perform a review of the sponsoring lender’s files. In
            addition, we reviewed Bankers Mortgage Group’s loan origination files and also
            reviewed the corresponding FHA case files, which would include information
            from the originating and sponsoring lenders. The lack of documentation that was
            present in the loan origination files was consistent with what we found in the FHA
            case file. We agree that an earlier quality control review conducted by Bankers
            Mortgage Group’s quality control contractor found no issues with the asset
            documentation that was included with one loan in our sample, FHA Loan No.
            197-4173899. However, as stated in our report, given that the supporting
            documentation for two loans in our sample was false, we had no assurance that
            the gifts for the remaining loans come from an appropriate source or interested
            party. FHA requires source documentation which shows that gift funds came
            from the purported donors, and those documents were not present in the files.

Comment 5   OIG is unable to grant a 30 day-extension for further responses. However,
            Bankers Mortgage Group will have an opportunity to provide verbal and written
            responses to HUD during the audit resolution phase.

            FHA Loan No. 197-4454618 is the only loan in our audit sample that has gone
            into claim. However, we disagree with the auditee’s statement that all other loans
            that we sampled are performing. FHA Loan No. 197-5237865 is currently in
            foreclosure and FHA Loan No. 197-4725331 was recently reinstated by the
            borrowers without loss mitigation after several months of delinquencies and
            repayments. Although the auditee indicated in the response that they attempted to
            buy back FHA Loan No. 197-4454618 after learning that it had defaulted, our
            review disclosed that the borrower’s pay was overstated, and the borrower’s
            verifications of employment appeared to have been altered. The auditee will need
            to address these issues with HUD during audit resolution.

Comment 6   We sent an electronic copy of the draft report to the auditee on August 7, 2012,
            and while we agree that that auditee’s loan files were not returned until August
            14, 2012, the auditee was still provided the standard 15-day response period, as
            we extended the response due date to August 29, 2012. We are unable to grant
            additional time for responses to the draft report. However, the auditee will have
            ample opportunity to provide HUD with verbal and written information during the
            audit resolution phase.




                                            20
Comment 7   The recommendations in our report were made to HUD and other relevant parties.
            OIG is not the final authority on implementation of the recommendations. . The
            auditee will be able to address our recommendations and provide information to
            HUD to support its position during audit resolution.




                                          21
Appendix C

                                        CRITERIA


1. HUD Handbook 4155.1, paragraph 1B(2)(f)
   (HUD Handbook 4155.1, REV-5, paragraph 3-1(E))
   The lender must obtain the most recent pay stub showing year-to-date earnings of at least one
   month, and one of the following to verify current employment:

       •   a written VOE [verification of employment] verbal verification of employment, or
       •   electronic verification acceptable to FHA.

   TOTAL Scorecard Accept/Approve Recommendation for Employment Verification:
   The lender is required to verify the applicant’s employment history for the previous two
   years.

   However, direct verification is not required if all of the following conditions are met:

       •   the current employer confirms a two-year employment history (this may include a pay
           stub indicating a hiring date)
       •   the lender only uses base pay (no overtime or bonus pay) to qualify the borrower and
       •   the borrower signs Form IRS [Internal Revenue Service] 4506 or Form IRS 8821 for
           the previous two tax years.

   Borrower Not Employed with Same Employer: If the borrower was not employed with the
   same employer for the previous two years, and/or the above conditions cannot be met, the
   lender must verify the most recent two years of employment history by obtaining:

       •   copies of [IRS] W-2s
       •   written VOEs, or
       •   electronic verification acceptable to FHA.

   No explanation is required for gaps in employment of six months or less during the most
   recent two years.

2. HUD Handbook 4155.1, paragraph 4D(1)(b)
   (HUD Handbook 4155.1, REV-5, section 2-6)

   To be eligible for a mortgage, FHA does not require a minimum length of time that a
   borrower must have held a position of employment. However, the lender must verify the
   borrower’s employment for the most recent two full years, and the borrower must explain
   any gaps in employment that span one or more months and indicate if he/she was in school or




                                                22
   the military for the most recent two full years, providing evidence supporting this claim such
   as college transcripts or discharge papers.
   The TOTAL (Technology Open to All Lenders) Scorecard Accept recommendation does not
   require an explanation for gaps in employment of six months or less, during the most recent
   two years.

3. HUD Handbook 4155.1, paragraph 4D(4)(d)
   (HUD Handbook 4155.1, paragraph 2-9(B))

   Self employed borrowers must provide
       • signed, dated individual tax returns, with all applicable tax schedules for the most
          recent two years
       • for a corporation, “S” corporation, or partnership, signed copies of Federal business
          income tax returns for the last two years, with all applicable tax schedules
       • a year-to-date profit and loss (P&L) statement and balance sheet, and
       • a business credit report for corporations and “S” corporations.

   TOTAL Scorecard Accept/Approve Recommendation
   If the Technology Open To Approved Lenders (TOTAL) Scorecard returns an
   Accept/Approve recommendation, the borrower is not required to provide
   business tax returns if all of the following conditions are met:
      •   individual Federal income tax returns show increasing self employed income over the
          past two years
      •   funds to close are not coming from business accounts, and
      •   the proposed FHA-insured mortgage is not a cash out refinance.

   Note: A business credit report for a corporation or “S” corporation is not required if the loan
   receives a TOTAL Scorecard Accept/Approve recommendation.

4. HUD Handbook 4155.1, paragraph 4F(2)(b)

   The relationship of the mortgage payment to income is considered acceptable if the total
   mortgage payment does not exceed 31 percent of the gross effective income. A ratio
   exceeding 31 percent may be acceptable only if significant compensating factors, as
   discussed in HUD 4155.1.4.F.3, are documented and recorded on Form HUD-92900-LT,
   FHA Loan Underwriting and Transmittal Summary.

5. HUD Handbook 4155.1, paragraph 4F(2)(c)

   The relationship of total obligations to income is considered acceptable if the total mortgage
   payment and all recurring charges do not exceed 43 percent of the gross effective income. A
   ratio exceeding 43 percent may be acceptable only if significant compensating factors, as
   discussed in HUD 4155.1.4.F.3, are documented and recorded on the Form HUD-92900-LT,
   FHA Loan Underwriting and Transmittal Summary.




                                               23
6. HUD Handbook 4155.1, paragraph 5B(2)(a)
   (HUD Handbook 4155.1, REV-5, paragraph 2-10(A))

   The lender must verify and document the deposit amount and source of funds, if the amount
   of the earnest money deposit

      •   exceeds 2% of the sales price, or
      •   appears excessive based on the borrower’s history of accumulating savings.

      Satisfactory documentation includes
      • a copy of the borrower’s cancelled check
      • certification from the deposit-holder acknowledging receipt of funds, or
          separate evidence of the source of funds.

   Separate evidence includes a verification of deposit (VOD) or bank statement showing that
   the average balance was sufficient to cover the amount of the earnest money deposit at the
   time of the deposit.

7. HUD Handbook 4155.1, paragraph 5B(4)(d)
   (HUD Handbook 4155.1, REV-5, paragraph 2-10(C))

   Regardless of when gift funds are made available to a borrower, the lender must be able to
   determine that the gift funds were not provided by an unacceptable source, and were the
   donor's own funds.

   When the transfer occurs at closing, the lender is responsible for verifying that the closing
   agent received the funds from the donor for the amount of the gift, and that the funds were
   from an acceptable source.

8. HUD Handbook 4155.1, paragraph 5B(5)(b)
   (HUD Handbook 4155.1, REV-5, paragraph 2-10(C))

   The lender must document the transfer of the gift funds from the donor to the borrower.

   If the gift funds are in the borrower’s account, then the lender must obtain a copy of the
   withdrawal document showing that the withdrawal is from the donor’s account and the
   borrower’s deposit slip and bank statement showing the deposit.

   If the gift funds are to be provided at closing, and are in the form of a cashier’s check, money
   order, official check, or other type of bank check, have the donor provide a withdrawal
   document or cancelled check for the amount of the gift, showing that the funds came from
   the donor’s personal account.




                                                24
Appendix D
`
    SCHEDULE OF ESTIMATED LOSSES FOR LOANS WITH
                SIGNIFICANT DEFICIENCIES

            FHA loan      Unpaid mortgage      Loss to HUD   Estimated loss to HUD
             number           balance                                (66%)
          197-4525510 5           $356,637                                $235,380
          197-4249639 6           $115,287                                  $76,089
          197-4639800             $264,395                                $174,501
          197-4454618                              $58,704
          197-4173899              $354,726                               $234,119
          197-4725331              $333,403                               $220,046
          197-5237865              $332,828                               $219,667
          197-4598615              $259,406                               $171,208
          045-7422057               287,884                               $190,004
                                 $2,304,566        $58,704              $1,521,014




5
  Purchase loan was refinanced. Unpaid mortgage amount and estimated loss to HUD are for the
refinanced loan no. 197-5157630.
6
  Purchase loan was refinanced. Unpaid mortgage amount and estimated loss to HUD are for the
refinanced loan no. 197-5157291.


                                              25
Appendix E

       NARRATIVE LOAN SUMMARIES FOR SIGNIFICANT
              UNDERWRITING DEFICIENCIES

The following narratives provide the details for the significant underwriting deficiencies noted in
the table in finding 1.

1. FHA loan number: 197-4525510 (FHA refinance loan no. 197-5157630)
   Loan status: Active
   Requesting indemnification: Yes
   Default status: N/A

  We are seeking indemnification based on two factors: (1) Bankers Mortgage Group used
  questionable pay stubs and verification of employment documentation to qualify the borrower
  for an FHA loan, and (2) Bankers Mortgage Group did not properly document the transfer of
  gift funds between the donor and the borrower. In addition, bank statements that were
  provided to support the donor’s gift were false.

  Income
  OIG could not verify the employment that was included on the borrower’s loan application
  and verification of employment. No wages were reported to the State of California for the
  borrower. The employer signed the borrower’s verification of employment in August 2009,
  yet the loan and escrow files showed that pay stubs and other supporting income documents
  were not furnished until October 2009. Further, these documents were provided only after
  repeated attempts by the sponsoring lender to obtain the information. We visited the
  employer’s location on two occasions to verify the pay information in the file. We also left
  voicemail messages and business cards for the owner to contact us. The owner did not contact
  us, and employees working at the location told us they were not familiar with the borrower’s
  employer and provided us with conflicting information about when we could speak with the
  employer to verify employment.

  Assets
  Contrary to HUD Handbook 4155.1, REV-5, paragraph 2-10(C), Bankers Mortgage Group
  did not obtain the required documentation supporting the transfer of gift funds of $6,000 from
  the borrower’s sister (see HUD Handbook 4155.1, REV-5, paragraph 2-10(C)(2)(b), in
  appendix C). The loan file did not contain a withdrawal slip or cancelled check for the
  amount of the gift, which would verify that the funds came from the donor’s personal account.
  We found a copy of the donor’s bank statement in the Bankers Mortgage Group loan and
  FHA case files. However, the statement did not evidence withdrawal of the $6,000 gift, as
  only the first page of the statement was present. We obtained a copy of the front side of the
  $6,000 cashier’s check and a receipt from the escrow company. However, this was also
  insufficient and did not demonstrate that the funds came directly from the donor’s account.
  We learned that the bank statement supporting the $6,000 gift belonged to the president and



                                                26
  owner of Bankers Mortgage Group and was altered to reflect the name of the gift donor.
  Therefore, the documentation provided to support the $6,000 gift was false.

2. FHA loan number: 197-4249639 (FHA refinance loan no. 197-5157291)
   Loan status: Active
   Requesting indemnification: Yes
   Default status: N/A

  We are seeking indemnification based on two factors: (1) Bankers Mortgage Group used
  falsified pay stubs and verification of employment documentation to qualify the borrower for
  an FHA loan, and (2) Bankers Mortgage Group did not properly document the transfer of gift
  funds that were used as the borrower’s cash investment in the property.

  Income

  Pay stubs and verification of employment documentation in the Bankers Mortgage Group loan
  file and submitted as part of the borrower’s loan package were false. We contacted the
  borrower’s employer, who verified that the copies of the pay stubs were not issued by his
  company and the information on the verification of employment was not completed by him.
  The owner provided copies of the pay stubs issued by his company for the same period. The
  pay stubs provided by the owner showed that the borrower was an hourly rather than a
  salaried employee, who earned $2,641 per month, as reflected on the false pay stubs. The
  false pay stubs showed a 2-week pay period rather than a weekly pay period, as shown on the
  pay stubs provided by the owner. Finally, the pay stubs provided by the owner showed that
  the borrower received overtime pay, while the false pay stubs did not. The owner stated that
  with the exception of the signature on the verification of employment form, the handwriting
  on the form did not belong to him. He also stated that he had never seen the form before and
  some of the information was not accurate, including that the borrower was a salaried
  employee.

  The borrower’s earnings were overstated by $942, or $11,307 annually, because they were
  determined based on false pay stubs and a false verification of employment form. According
  to the State of California wage information and pay stubs provided by the owner for a period
  of 3 months, the borrower earned a total of $20,385 for calendar year 2009, or an average of
  $1,699 per month.

  Assets

  Contrary to HUD Handbook 4155.1, REV-5, paragraph 2-10(C), Bankers Mortgage Group
  did not obtain the required documentation supporting the transfer of gift funds totaling
  $15,338 from the borrower’s mother and aunt (see HUD Handbook 4155.1, REV-5, paragraph
  2-10(C)(2)b), in appendix C). The mother of the borrower supposedly gifted him $4,838.
  However, there was no withdrawal document or canceled check in the file to clearly show the
  transfer of the gift. The file contained a letter from the borrower stating that he shared a bank
  account with his mother and that although she made small deposits of her own, most of the
  money in the account belonged to the borrower. The mother’s pay stubs were found in the



                                               27
  Bankers Mortgage Group file for the periods March 26 through April 1, 2009, and April 23
  through April 29, 2009, and were used to support that she was depositing funds into the
  account. However, the pay stubs appeared to have been falsified, as the last four digits of the
  mother’s Social Security number were identical to the borrower’s Social Security number.
  Therefore, the mother may not have had the income to gift her son $4,838.

  A copy of the front side of a cashier’s check and a withdrawal document for $10,500 was in
  the Bankers Mortgage Group file and provided as evidence of the aunt’s transfer of funds. A
  copy of the aunt’s bank statement with the same account number shown on the withdrawal
  slip was also included in the file. However, the account number belonged to the president and
  owner of Bankers Mortgage Group. With the exception of the name and address block, the
  bank statement that supposedly belonged to the borrower’s aunt was identical in every respect
  to the president and owner’s personal bank statement. Also, the cashier’s check showed the
  signature of the president and owner of Bankers Mortgage Group. Therefore, the aunt did not
  gift the borrower $10,500, and those funds actually came from the president and owner of
  Bankers Mortgage Group’s personal account.

  Bankers Mortgage Group did not adequately verify the borrower’s earnest money deposit of
  $7,694 as required by HUD (see HUD Handbook 4155.1, REV-5, paragraph 2-10(A), in
  appendix C). The file contained satisfactory documentation to support $2,500 of the total
  earnest money deposit; however, it did not contain documentation for the remaining $5,194.
  The file contained the borrower’s most recent bank statement showing that he had an
  available balance of $5,226 as of May 18, 2009. However, the deposit was wire transferred to
  the escrow company on July 7, 2009, and the criteria require documentation showing that the
  borrower had sufficient funds to cover the deposit at the time it was made. A copy of the
  front side of the check and a receipt for $5,194 was found in the escrow file.

3. FHA loan number: 197-4639800
   Loan status: Active
   Requesting indemnification: Yes
   Default status: N/A

  We are seeking indemnification based on Bankers Mortgage Group’s failure to properly
  document the transfer of gift funds that were used as the borrower’s cash investment in the
  property.

  Assets

  Bankers Mortgage Group did not meet HUD requirements by failing to obtain the required
  documentation supporting the transfer of gift funds totaling $10,000 from the borrower’s
  father (see HUD Handbook 4155.1, REV-5, paragraph 2-10(C)(2)(b)). A copy of the front
  side of the donor’s cashier’s check for $10,000 and the escrow receipt was found in the
  escrow file. However, neither Bankers Mortgage Group nor the escrow company had copies
  of the withdrawal document or canceled check for the amount of the gift; therefore, it was not
  properly documented, and the source of the gift was not completely verified.




                                               28
4. FHA loan number: 197-4454618
   Loan status: Claim
   Requesting indemnification: Yes
   Default status: Preforeclosure sale completed

  We are seeking indemnification based on two factors: (1) Bankers Mortgage Group
  originated the loan based on questionable income documentation and overstated the
  borrower’s monthly income by $1,475 per month, or $17,695 for the year, and (2) Bankers
  Mortgage Group did not adequately verify the borrower’s earnest money deposit of $21,892.

  Income

  Bankers Mortgage Group overstated the monthly income for the borrower by $1,475 per
  month. The verification of employment showed that the borrower received a monthly income
  of $2,569; however, Bankers Mortgage Group used $5,138 per month, or double the monthly
  income, as the borrower’s base pay. We determined that the borrower’s monthly income was
  $3,633 for the year 2009 based on State of California wage information. OIG also verified
  with the borrower that he worked 40 hours per week at a rate of $27 to $30 per hour. This
  amount equated to a base pay of about $4,800 per month.

  The borrower’s verifications of employment in the Bankers Mortgage Group and FHA files
  appeared to be questionable. The first verification for the borrower’s current employer had
  the borrower’s last name scratched out. The second verification was almost identical to the
  first one but included a last name that belonged to someone other than the borrower and was
  signed by the vice president of the company. The third verification was completed by the
  borrower’s previous employer, while the fourth verification, which was also supposed to be
  from the borrower’s previous employer, had a mix of information from the borrower’s
  previous and current employers. In addition, the dates of employment, job title, and year-to-
  date base pay from the fourth verification of employment were identical to that found in the
  first one. The loan processor explained that her assistant accidentally faxed the previous
  employer’s completed verification to the current employer. The vice president of the current
  employer then completed part of the verification and faxed it back to Bankers Mortgage
  Group. This explanation was not reasonable since a completed section of the verification had
  not been completed in the copy that was incorrectly filled out by the current employer.
  Further, if the verification had been completed by the vice president, the handwriting on this
  verification should have matched the handwriting on the correct verification, also completed
  by the vice president. The fourth verification also addressed the borrower’s name in the
  remarks section.

  Assets

  Bankers Mortgage Group did not comply with HUD requirements by failing to verify the
  borrower’s earnest money deposit of $21,892 (HUD Handbook 4155.1, REV-5, paragraph 2-
  10(A)). The Bankers Mortgage Group file contained a bank statement for the borrower
  through August 2009, showing an available balance of $39,746. However, it did not contain a
  bank statement for the borrower at the time of the deposit in October of 2009. It also did not



                                              29
  include a copy of the borrower’s canceled checks or other satisfactory documentation in the
  file. The escrow company’s file contained only a copy of the front side of the checks and the
  receipt of deposit.

5. FHA loan number: 197-4173899
   Loan status: Active
   Requesting indemnification: Yes
   Default status: N/A

  We are seeking indemnification based on two factors: (1) Bankers Mortgage Group used
  questionable pay stubs and verification of employment documentation to qualify the borrower
  for an FHA loan, and (2) Bankers Mortgage Group did not properly verify the borrower’s
  earnest money deposit.

  Income

  The borrower’s pay stubs appeared questionable. They showed a consistent biweekly income
  of $3,225, or $6,987 per month. However, the borrower stated that he was paid about $4,000
  in cash per month, and this amount could vary. The borrower could not give a definite answer
  as to whether the pay stubs belonged to him. In addition, the format did not match the format
  of a pay stub belonging to another borrower who worked at the same place of employment
  (see FHA loan no. 045-7422057).

  The borrower’s verification of employment supported that the borrower received a monthly
  income of $6,450. However, the handwriting and signature of the owner on the borrower’s
  verification was not consistent with the handwriting and signature on the verification for the
  other borrower. Further, no wages were reported to the State of California. The borrower
  stated that he had worked for the company for the last 5 to 6 years. This information was not
  consistent with the information on the verification of employment, which showed that he
  began working on January 1, 2009. The borrower was unable to explain the discrepancy in
  information.

  We performed three site visits and were unsuccessful in speaking with the owner of the
  company. The employment address belonged to a home that was inhabited by a woman
  instead of a man according to a neighbor. We contacted the owner by phone, and he verbally
  acknowledged that both of the borrowers worked for him; however, as of April 5, 2011, the
  owner had not returned a completed statement of employer verification form for either
  borrower.

  The coborrower had a gap of employment of more than 1 year (July 9, 2008, to August 6,
  2009) within the 2 years since the loan closed. However, the file did not contain an
  explanation for the employment gap spanning 1 month or more as required by HUD (see
  HUD Handbook 4155.1, REV-5, paragraph 2-6, in appendix C).

  Assets




                                               30
  Bankers Mortgage Group did not meet HUD requirements by failing to verify the borrower’s
  earnest money deposit of $13,233 since it exceeded 2 percent of the sales price of the property
  (see HUD Handbook 4155.1, REV-5, paragraph 2-10(A), in appendix C). Satisfactory
  documentation was in the file to support $5,000 of the earnest money deposit. The file did not
  contain documentation to support the remaining $8,233. A copy of the borrower’s most
  recent bank statement was dated August 21, 2009, and showed that he had sufficient funds in
  his accounts to cover the remaining deposit. However, $200 was received by the escrow
  company on November 18, 2009, and the remaining $8,033 was received on November 10,
  2009. HUD Handbook 4155.1, REV-5, paragraph 2-10(A), requires that the documentation
  show sufficient funds to cover the deposit at the time it was made.

6. FHA loan number: 197-4725331
   Loan status: Active
   Requesting indemnification: Yes
   Default status: Repayment

  We are seeking indemnification based on Bankers Mortgage Group’s failure to properly
  document the transfer of gift funds that were used as the borrower’s cash investment in the
  property.

  Assets

  Bankers Mortgage Group did not comply with HUD requirements by failing to obtain the
  required documentation to support the transfer of gift funds totaling $10,000 from the
  borrower’s uncle (see HUD Handbook 4155.1, REV-5, paragraph 2-10 (C), in (appendix C)).

  The loan file contained a copy of a gift letter stating that the borrower’s uncle would provide a
  $10,000 gift toward purchase of the property. A copy of the donor’s bank statement had some
  of the donor’s account numbers blocked out, making them unidentifiable. The bank statement
  did not contain withdrawals for the uncle’s $10,000 gift. Escrow company records contained
  a copy of the front side of the donor’s cashier’s check and the escrow receipt. However,
  neither Bankers Mortgage Group nor the escrow company had copies of the withdrawal
  document or canceled check for the amount of the gift; therefore, the gift was not properly
  documented, and the source of the gift was not completely verified.

  Bankers Mortgage Group also did not comply with HUD requirements when verifying the
  borrowers’ earnest money deposit.

  The borrowers deposited a total of $12,269 in earnest money. The loan file contained a copy
  of the borrowers’ check for $5,000, accompanied by a receipt from the escrow company and
  bank statement showing the withdrawal of the $5,000. However, there was no bank statement
  in the file at the time of deposit of the $7,269. We found a copy of a wire transfer and a
  receipt for the $7,269 in the escrow company file. However, it did not comply with HUD
  Handbook 4155.1, REV-5, paragraph 2-10(A), which requires evidence of the source of funds
  showing that the borrowers’ average balance was sufficient to cover the amount of the earnest
  money deposit at the time of deposit.



                                               31
7. FHA loan number: 197-5237865
   Loan status: Active
   Requesting indemnification: Yes
   Default status: Delinquent

  We are seeking indemnification based on Bankers Mortgage Group’s failure to document the
  transfer of gift funds that were used as the borrower’s cash investment in the property.

  Assets

  Contrary to HUD Handbook 4155.1, paragraph 5B(5)(b), Bankers Mortgage Group did not
  obtain the required documentation supporting the transfer of gift funds totaling $17,900 from
  the borrower’s uncle (see HUD Handbook 4155.1, paragraph 5B(5)(b), in appendix C). The
  borrower received $17,900 in three checks from her uncle. A copy of the uncle’s bank
  statement showed that check #102 was issued for $5,000 on October 12, 2010, while the
  borrower’s bank statement showed a deposit of $5,000 on October 12, 2010. Check #103 for
  $10,000 and check #104 for $2,900 were supported by the borrower’s bank statement.
  However, a copy of the withdrawal document and the borrower’s deposit slip was not in the
  file for all three checks. Therefore, the transfer of gift funds was not properly documented.

8. FHA loan number: 197-4598615
   Loan status: Active
   Requesting indemnification: Yes
   Default status: N/A

  We are seeking indemnification based on Bankers Mortgage Group’s use of potentially false
  pay stubs and verification of employment documentation to qualify the borrower for an FHA
  loan.

  Income

  The borrower’s pay stubs and verification of employment documentation that were in the
  Bankers Mortgage Group file and submitted as part of the borrower’s loan package were
  likely falsified. We contacted the borrower’s employer and spoke with the owner. The owner
  verified that the borrower worked a total of 35-48 hours per week at a rate of $20 per hour,
  which equates to a base pay of $700-$960 per week, or $3,033-$4,160 per month. This
  information was not consistent with the information on the pay stub and verification of
  employment, which showed that the borrower was a salaried employee who made $3,280 per
  month. Although the employer partially completed the OIG verification of employment form,
  he would not return a signed copy despite our attempts in asking for it. When we spoke with
  the borrower, he claimed that he worked only 40 hours per week and made approximately
  $140 to $150 per day. He also stated that the owner issued the pay stubs to help him get his
  loan. Further, no wages were reported to the State of California for the borrower.

  Assets




                                              32
  The borrowers’ earnest money deposit was not adequately verified as required by HUD
  Handbook 4155.1, REV-5, paragraph 2-10(A). The file contained satisfactory documentation
  to support the initial $3,000 deposited by one of the borrowers. However, the remaining
  $10,120 did not have support to show that the borrower had sufficient funds to cover the
  earnest money deposit at the time of deposit. The borrower’s bank statement was for the
  period November 7-December 7, 2009 and showed a balance of $325. We obtained copies of
  the front sides of cashier’s checks, escrow receipts, and a wire transfer from the escrow
  company. However, $830.27 was deposited with the escrow company on December 30, 2009,
  and $9,290 was deposited on January 4, 2010. The bank statement did not support the
  deposits at the time they were made.

9. FHA loan number: 045-7422057
   Loan status: Active
   Requesting indemnification: Yes
   Default status: N/A

  We are seeking indemnification based on two factors: (1) Bankers Mortgage Group did not
  adequately verify that the borrower was employed at the time of the loan application, and (2)
  Bankers Mortgage Group did not properly document the transfer of gift funds that were used
  as the borrower’s cash investment in the property.

  Income

  Bankers Mortgage Group should have questioned the borrower’s verification of employment
  documentation. The borrower worked at the same place of employment as another borrower
  in our sample (FHA loan no. 197-4173899). The handwriting and signatures of the owner on
  both verifications of employment were not identical, although the owner name and company
  were the same. The format of the two pay stubs was also dissimilar and reflected different
  employment addresses. We performed a site visit to the employer locations in Sylmar and
  Bakersfield, CA. The Sylmar location belonged to a residential address of a female realtor
  who refused to speak with us. Her neighbors had never heard of the company name. The
  Bakersfield location also belonged to a residential address; however, the resident of the house
  stated that the owner of the company did not live there. We contacted the owner by phone
  and requested that he complete a verification of employment for the two borrowers in our
  sample. He had not returned the verification of employment despite several follow-up calls.

  Assets

  Contrary to HUD Handbook 4155.1, paragraph 5B(5)(b), Bankers Mortgage Group did not
  obtain the required documentation supporting the transfer of gift funds totaling $16,613 from
  the borrower’s father (see HUD Handbook 4155.1, paragraph 5B(5)(b), in appendix C). Of
  the $16,613 in gift funds, Bankers Mortgage Group’s file contained a copy of the donor’s
  bank statement showing the image of the canceled check, dated June 2011, issued to the
  borrower for $3,000. The Bankers Mortgage Group file did not contain copies of the
  withdrawal document or canceled checks for the remaining $13,613 in gift funds.




                                               33
Bankers Mortgage Group did not adequately verify the borrower’s earnest money deposit of
$15,613 as required by HUD (see HUD Handbook 4155.1, paragraph 5B(2)(a), in appendix
C). The file contained satisfactory documentation for $5,000; however, it did not have the
documentation for the remaining $10,613 of the earnest money deposit. The borrower’s bank
statement as of August 23, 2011, showed a balance of $8,214. This amount was insufficient
to cover the remaining $10,613 in deposits. However, the escrow company’s file contained
copies of the front side of the check or cashier’s check and certification from the bond holder
acknowledging receipt of funds for the remaining $10,613 in funds.




                                             34
